<html>
<title> - OFFICIAL TIME: GOOD VALUE FOR THE TAXPAYER?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





              OFFICIAL TIME: GOOD VALUE FOR THE TAXPAYER?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,
                  U.S. POSTAL SERVICE AND LABOR POLICY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 1, 2011

                               __________

                           Serial No. 112-51

                               __________

Printed for the use of the Committee on Oversight and Government Reform





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform




                  U.S. GOVERNMENT PRINTING OFFICE
70-524 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

Subcommittee on Federal Workforce, U.S. Postal Service and Labor Policy

                   DENNIS A. ROSS, Florida, Chairman
JUSTIN AMASH, Michigan, Vice         STEPHEN F. LYNCH, Massachusetts, 
    Chairman                             Ranking Minority Member
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
JASON CHAFFETZ, Utah                     Columbia
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
TIM WALBERG, Michigan                DANNY K. DAVIS, Illinois
TREY GOWDY, South Carolina














                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 1, 2011.....................................     1
Statement of:
    Curry, Timothy F., Deputy Associate Director, Partnership and 
      Labor Relations, U.S. Office of Personnel Management; F. 
      Vincent Vernuccio, labor policy counsel, Competitive 
      Enterprise Institute; James Sherk, senior policy analyst in 
      labor economics, the Heritage Foundation; and John Gage, 
      national president, American Federation of Government 
      Employees..................................................    28
        Curry, Timothy F.........................................    28
        Gage, John...............................................    55
        Sherk, James.............................................    45
        Vernuccio, F. Vincent....................................    36
    Gingrey, Hon. Phil, a Representative in Congress from the 
      State of Georgia...........................................    14
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............     7
    Curry, Timothy F., Deputy Associate Director, Partnership and 
      Labor Relations, U.S. Office of Personnel Management, 
      prepared statement of......................................    30
    Gage, John, national president, American Federation of 
      Government Employees, prepared statement of................    57
    Gingrey, Hon. Phil, a Representative in Congress from the 
      State of Georgia, prepared statement of....................    16
    Lynch, Hon. Stephen F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............    12
    Ross, Hon. Dennis A., a Representative in Congress from the 
      State of Florida, prepared statement of....................     4
    Sherk, James, senior policy analyst in labor economics, the 
      Heritage Foundation, prepared statement of.................    47
    Vernuccio, F. Vincent, labor policy counsel, Competitive 
      Enterprise Institute, prepared statement of................    38

 
              OFFICIAL TIME: GOOD VALUE FOR THE TAXPAYER?

                              ----------                              


                        WEDNESDAY, JUNE 1, 2011

                  House of Representatives,
    Subcommittee on Federal Workforce, U.S. Postal 
                          Service and Labor Policy,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:34 p.m., in 
room 2154, Rayburn House Office Building, Hon. Dennis A. Ross 
(chairman of the subcommittee) presiding.
    Present: Representatives Ross, Amash, Gowdy, Lynch, Norton, 
Connolly, and Davis.
    Staff present: Ali Ahmad, communications advisor; Sharon 
Casey, senior assistant clerk; Jennifer Hemingway and Mark D. 
Marin, senior professional staff members; Christopher Hixon, 
deputy chief counsel, oversight; Ryan Little and James 
Robertson, professional staff members; Laura L. Rush, deputy 
chief clerk; Peter Warren, legislative policy director; Jaron 
Bourke, minority director of administration; Kevin Corbin, 
minority staff assistant; and William Miles, minority 
professional staff member.
    Mr. Ross. Good afternoon. I will call the Subcommittee on 
Federal Workforce, U.S. Postal Service and Labor Policy to 
order. It looks like we might have votes between 2:15 and 2:30, 
so we will try to get as much done as we can.
    I will do my opening statement, and then I think the 
ranking member, Mr. Lynch, should be here by then. After his 
opening statement, we will go into our first panel, and then 
after that we will set up for our next panel and questions.
    With that, I will begin with the reading of our oversight 
committee mission statement: We exist to secure two fundamental 
principles; first, Americans have a right to know that the 
money Washington takes from them is well spent; and second, 
Americans deserve an efficient, effective government that works 
for them.
    Our duty on the Oversight and Government Reform Committee 
is to protect these rights. Our solemn responsibility is to 
hold government accountable to taxpayers because taxpayers have 
a right to know what they get from their government. We will 
work tirelessly, in partnership with citizen watchdogs, to 
deliver the facts to the American people and bring genuine 
reform to the Federal bureaucracy. This is the mission of the 
Oversight and Government Reform Committee.
    I will now move into my opening statement. Work time that 
Federal employees spend performing tasks for labor unions 
instead of the assigned duty at work they were hired to perform 
is referred to as ``official time.'' In 2002, former Office of 
Personnel Management Director Kay Coles James issued a 
memorandum directing each Federal Government Department and 
agency to report on the number of hours of official time used 
by employees. After the issuance of the James' memo, OPM 
publicly released a report on official time usage each March 
until 2009, when it inexplicably ceased reporting this 
information.
    Repeated requests for the Report on Official Time Usage for 
Fiscal Year 2009 were made by the Competitive Enterprises 
Institute and Representative Phil Gingrey of Georgia. However, 
the report was not produced until after Chairman Issa and I 
sent a letter to OPM requesting it on April 21st. Last month, 
OPM finally issued an interim response to our request, 19 
months following the end of fiscal year 2009.
    The report indicated that Federal employees spent nearly 3 
million hours of official time on union activities in 2009. 
This came at a cost of $129 million to American taxpayers, $8 
million higher than the previous fiscal year. To put these 
numbers in perspective, American taxpayers spent enough on 
official time activity in 2009 to fund a full-time work force 
of over 1,400 employees for an entire year at an average annual 
salary of $90,000.
    OPM's lengthy delay in releasing information related to 
official time raises serious transparency concerns, but the 
very necessity of allowing Federal employees to conduct union 
activities at taxpayer expense also needs to be explored. There 
is no evidence that official time has a positive impact on 
productivity. When an employee is on official time, he or she 
is not available to perform the duties for which they were 
hired. I ask, Can we afford such charity, given the fiscal 
problems facing our country?
    Congressman Gingrey has introduced the Federal Employee 
Accountability Act to do away with official time, which will 
save taxpayers an estimated $1.2 billion over 10 years. I am 
proud to be a cosponsor of that legislation. I will myself be 
introducing a bill in response to OPM's failure to live up to 
the Obama administration's transparency pledge. My bill will 
mandate the production of an annual official time report no 
later than March 31st of each calendar year. Americans deserve 
to know how their taxpayer dollars are being spent. OPM's delay 
in reporting information on the use of official time, coupled 
with the National Labor Relations Board's decision to sue 
Boeing as well as the States of Arizona and South Dakota, 
raises concerns as to whether this administration is pursuing a 
decidedly pro-union agenda at the expense of a sound work force 
policy.
    At a time when our economy is in a recession and budget 
deficits are at staggering record levels, efficiency is 
imperative. Taxpayers should not have to continue footing the 
bill for union welfare, particularly when little evidence 
exists that official time is improving government productivity.
    This hearing presents an opportunity for lawmakers on this 
committee to hear important testimony about whether official 
time is a good value for the American taxpayer. I thank the 
witnesses for appearing here today, and I look forward to their 
testimony.
    I would recognize the ranking member of the full committee, 
Mr. Cummings from Maryland.
    [The prepared statement of Hon. Dennis A. Ross follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Today's hearing will not increase government efficiency or 
value to the taxpayer. This hearing, like the other labor 
policy hearings this committee has held, is meant to provide 
justification for removing workplace rights for public workers. 
It mirrors what Republican Governors around the country are 
doing to public workers in their States. That is why today we 
are focusing on a program that consumes a tiny fraction of 
Federal employee time and actually saves the taxpayers money.
    Federal employee unions enjoy few of the rights of private 
sector unions. Federal employees may not strike, and in most 
circumstances they are legally precluded from negotiating pay 
or benefits. There are strict limits to what may be done on 
official time. It cannot be used to solicit membership in 
unions or perform other union-specific or political business.
    Federal employees may, on official time, perform certain 
representational duties. They can negotiate with management to 
set employment standards and find solutions to problems arising 
in the workplace. These efforts can improve the operation of 
the Federal Government. For example, official time can improve 
personnel management by enabling facilities to develop internal 
dispute resolution processes.
    More than 14 years ago at Fort Sam Houston in San Antonio, 
union leadership and Army management instituted a negotiated 
alternative dispute resolution program. During that time, only 
three grievances have gone to a third-party arbitration. The 
alternative dispute resolution panels, which are composed of 
both management and bargaining unit employees, are empowered to 
investigate and make decisions on employee complaints. This 
process is estimated to have saved the Federal Government 
thousands of dollars in third-party expenses at this one 
installation alone.
    In recent years, the average number of official time hours 
per bargaining unit employee has declined. In 2009, bargaining 
unit employees on the average dedicated just 2.58 hours to 
official time over the course of the entire year. When compared 
to the costs of formal dispute resolution, the time savings are 
substantial.
    Official time allows Federal employees and managers to 
concentrate on ensuring that work is completed on time and that 
considerations regarding work conditions are handled quickly, 
effectively, and cooperatively.
    Today, we will hear from my colleague Mr. Gingrey, who I 
have a tremendous amount of respect for, who will speak on H.R. 
122, which is legislation he introduced basically to eliminate 
the use of official time for elected Federal employee union 
representatives to engage in representation activities on 
behalf of collective bargaining unit employees.
    Again, Mr. Chairman, H.R. 122 seems to be a solution in 
search of a problem. While there are costs associated with 
official time, the benefits far outweigh the costs. No evidence 
has been presented to this subcommittee to suggest that 
eliminating official time would result in any cost savings. To 
the contrary, alternative dispute resolution panels, like those 
at Fort Sam Houston, save the government from the steep costs 
associated with employment-related litigation.
    Mr. Chairman, there is tremendous value in allowing 
employees and management to solve problems together internally. 
If official time is prohibited, those efforts would also be 
considerably reduced, an outcome that would not be beneficial 
to employees, management, or the taxpayer.
    And with that, I yield back and thank the chairman for his 
courtesy.
    Mr. Ross. Thank you, Mr. Cummings.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Ross. I now recognize the chairman of the full 
committee, the gentleman from California, for his opening 
statement.
    Chairman Issa. I thank the chairman, and I thank the 
ranking member for his comments, because usually we go in the 
other order, and I think today it is particularly important 
that I go afterwards because I have worked in union shops, and 
I have worked in non-union shops. This is the only government 
shop I have ever worked in other than the Army. It is very 
clear that the ranking member, although he may be well 
intended, is missing the point.
    Elimination of official time would not eliminate decisions 
by management and labor representatives to do alternative 
dispute resolution to do other things that was determined by 
management--I repeat, determined by management--to be 
productive or helpful. If the ranking member believes that the 
gentleman from Georgia's legislation doesn't do that, as we go 
through the process, once it is presented to us, I would pledge 
to make sure that it did, in fact, still allow management to 
expend official time in order to get to the final and best 
resolution, regardless.
    But I think there is a huge different debate here, and as 
we hear from the Congressman from Georgia, I think what we are 
going to hear is, in fact, that this is simply a blank check 
for the shop stewards and the other people in the union to be 
paid with Federal dollars and do whatever they want to do in 
the promotion of their political views or their union 
activities. That is not really what we think is in the best 
interests, and I am going to just do a hypothetical before I 
yield back.
    If this bill becomes law, will unions stop to exist? No. 
Will union organization, union activity stop? No. Will, in 
fact, union representatives have to choose between working full 
time and doing extra work, or being paid for with union dues to 
do union work? I think that is a legitimate question, and I 
hope as we consider this bill in its current form, and with any 
proposed amendments, that we begin asking the question: Who 
should pay for union activities; and, in fairness to the 
gentleman from Georgia, how we should make sure that when you 
have management-labor dispute and activities related to the 
shop floor, work safety, any of those things, that in fact it 
is not unacceptable or uncommon for management to pay, if you 
will, for both sides of that discussion.
    So I look forward to the gentleman's testimony. I look 
forward to the bill being introduced, and I very much look 
forward to the opportunity to make sure that it accomplishes 
both: a value for the taxpayer and fairness for workers and 
management's ability to work together.
    And with that, I thank you, Chairman, for calling this 
hearing and yield back.
    Mr. Ross. Thank you, Mr. Chairman.
    I now recognize the ranking member of the subcommittee, the 
gentleman from Massachusetts, Mr. Lynch, for his opening.
    Mr. Lynch. Thank you, Mr. Chairman, and I would also like 
to thank our opening panelist, Representative Gingrey of 
Georgia, and thank all of our witnesses today for helping this 
subcommittee with its work.
    Today's hearing will examine the use of ``official time'' 
by Federal employees and asks the question of whether those 
workers and the best interests of the American taxpayer are 
served when a Federal employee exercises his or her statutory 
right to receive official time.
    Given that we will also be considering the merits of 
legislation H.R. 122 to severely restrict the availability of 
official time, I believe that many of my colleagues in the 
majority have already reached their conclusion.
    Notably, this hearing comes on the heels of a series of 
other subcommittee hearings that have been focused to a point 
on turning the finger of blame at our hardworking Federal 
employees as a primary cause of government overspending and the 
difficulties in the economy in which we find ourselves. I am, 
again, mystified how we all agree that Wall Street caused this 
problem, the reckless behavior of rating agencies that stamped 
AAA on anything that moved, and yet when the blame for all of 
this comes around, the finger of blame falls upon Federal 
employees, our police, our firefighters, our teachers. I don't 
know how the blame landed on them, but it is apparently the 
agenda of my friends across the aisle that this is where the 
source of the problem lies.
    In the name of fiscal responsibility, this subcommittee has 
chosen to focus its attention on whether or the Federal work 
force is overpaid, regardless of the high skill level or 
educational level and experience of our Federal employees, 
which on average, in comparison to their private sector 
counterparts, are much bettered positioned. We have also 
examined whether we can achieve cost savings by cutting our 
Federal work force across the board, regardless of the 
exorbitant cost of private contracting that has completely been 
ignored and is about four times the size of the basic Federal 
work force. And now, the subcommittee is keeping its attention 
on Federal workers by targeting the use of official time, 
regardless of the essential role that official time plays when 
it comes to an agency's cost savings, efficiency, productivity, 
and safety.
    Under the Civil Service Reform Act of 1978, the Federal 
employees represented by a union may be granted ``official 
time'' to perform certain representational activities during 
work hours that serve the joint interests of both labor and 
management. In particular, Federal law provides that the amount 
of time that may be used is limited to that which both labor 
and management agree is reasonable, necessary, and in the 
public interest. So we have to have an agreement right now 
between labor and management that the time awarded is 
reasonable. That is the law. That is what is going on right 
now.
    In other words, while the Federal employees may request 
official time, Federal managers and supervisors retain 
exclusive approval authority over these requests. But that is 
not good enough. That is not good enough for some of my friends 
on the other side of the aisle. They don't want that. They want 
it to be just cut out altogether. This is absurd. Give me a 
break.
    Accordingly, permissible official time activities may 
include employee participation in labor-management meetings 
that seek to identify ways to improve agency productivity, 
workplace safety, or employee training. In addition, Federal 
employees on official time may also work to enforce employee 
protections against unfair discrimination and employment. 
Hello?
    Let me also say what official time is not. Under Federal 
law, official time may not be used for solicitation of union 
membership. It may not be used for the purpose of conducting 
union meetings or elections, and it may not be used to conduct 
any partisan political activities.
    I am a former union steward, a former union executive board 
member, a former union president. Mr. Chairman, in contrast to 
the assertions that have been made regarding the misuse of 
official time by Federal workers, I would point out that 
official time has enjoyed a longstanding bipartisan support as 
a necessary and effective tool by which management and labor 
can work together to improve agency efficiency, productivity, 
and safety.
    Safety. We have a lot employees out there that work in a 
difficult and hazardous environment, and this is important to 
them coming home every day, safely, and in a healthy fashion to 
their families.
    I look forward to hearing from our witnesses. I see my time 
is about to expire, and I yield back and I thank the gentleman 
for his courtesy.
    Mr. Ross. Thank you, Mr. Lynch.
    [The prepared statement of Hon. Stephen F. Lynch follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Ross. Members may have 7 days to submit opening 
statements and extraneous material for the record.
    We will now welcome our first panel, Congressman Phil 
Gingrey from Georgia. You are recognized. Thank you.

 STATEMENT OF HON. PHIL GINGREY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF GEORGIA

    Mr. Gingrey. Mr. Chairman, thank you. Chairman Issa, thank 
you. Ranking Member Lynch, Member Cummings, and other members 
of the Subcommittee on Federal Workforce, U.S. Postal Service 
and Labor Policy, I appreciate the opportunity to testify on an 
important issue facing the Federal work force.
    It has already been mentioned in your opening statements in 
regard to opposition to legislation that I have proffered, H.R. 
122, that in some way this takes away rights of the Federal 
worker in regard to collective bargaining. I think it was 
referenced, some of the things that are going on in various 
States, Wisconsin in particular. But I want to make it very 
clear in starting my opening statement that this bill that I 
have proffered, H.R. 122 which you will consider, in no way, 
shape, or form takes away any Federal employee's rights to 
collective bargaining, indeed to representational activity on 
behalf of those union members who are designated to arbitrate 
and file grievances on their behalf.
    The question is, basically, Who pays for that? And under 
current law and since 33 years ago when the Civil Service 
Reform Act was passed in 1978 and signed into law by President 
Jimmy Carter, the issue basically stated that official time 
could include whatever is reasonable in the public interest. 
Well, that is not very definitive, and over the 33 years since 
the passage of that law, the use, in my opinion, of official 
time has been abused, quite frankly, and those who pay for 
official time are we, the taxpayer, not you, the union member, 
and I don't think that is right.
    The ranking member mentioned that in some way this bill is 
placing the blame on the Federal work force for the cause of 
the debt and the deficit, and putting the burden on the backs 
of our hardworking Federal employees. My bill really does 
nothing of the kind, and as you peruse it and hopefully mark it 
up, maybe even change it a bit, I think you will come to that 
same conclusion.
    Again, when the law was passed, the Civil Service Reform 
Act, in 1978, there was no requirement for any report on the 
total amount, the total number of hours, the total expenses of 
official time. In fact, in the past 33 years, only nine times 
have reports been issued; although in 2002, the then-director 
of the Office of Personnel Management put out a directive to 
all agencies of the Federal Government: In the interest of full 
disclosure to the taxpayer, you will issue a report and put 
it--file it on your Web site in a timely fashion.
    During those 4 or 5 years from 2002 to 2007, what we found 
was the total number of hours used in official time hours on 
filing grievances, collective bargaining, walking around, 
whatever that is, on the behalf of the union representational 
activity, have increased the total number of hours and the 
total amount of expense to, we, the taxpayer; over $100 
million, by the way. And that is not nickels and dimes, members 
of the subcommittee, and I think you would agree with that.
    And I think it is a responsibility of us, and particularly 
your committee and certainly particularly your subcommittee, 
Chairman Ross, to take a close, hard look at this with a sharp 
pencil, make sure that no rights are taken away from Federal 
employees. And again, as I say, my bill does not do that.
    It comes down to the question of who is going to pay for 
it. And today who pays for it are the taxpayers, not the union 
dues. Union dues are used for other things: political activity, 
signing up new members, lobbying on behalf of specific issues 
either for or against.
    Indeed, when we offered this as an amendment to the CR 
just, what, not even a month ago, I received as a Member an e-
mail from an employee of the Environmental Protection Agency 
urging me as a Member not to support this amendment. And you 
know, that was at 2:30 in the afternoon that I received that e-
mail. I don't know whether this employee was a designated 
representative of the union for that particular division of the 
EPA. But whether they were officially the representative or 
just an employee for the EPA, during that period of time at 
2:30 in the afternoon, they were supposed to be working, doing 
EPA work, very important work for, we, the taxpayer; yet they 
were lobbying Members of Congress to vote against this bill, 
and that is totally disallowed in the Civil Service Reform Act 
of 1978.
    So, you know, we clearly have a problem. Obviously, in the 
5 minutes--and I appreciate your patience with me, Mr. Chairman 
because, I know I have gone over a little bit, but I have 
submitted my entire report to the committee for the official 
record. But I just think that the responsible thing for Members 
on both sides of the aisle is to address this issue.
    If my bill is not perfect--and I feel pretty confident that 
it is not perfect--you go over it with a sharpened pencil and a 
fine-toothed comb and make sure that we get it right, because 
hundreds of millions of dollars a year--and since the reporting 
has not been done in a timely manner, in fact, not done at all 
in a couple of the last 3 or 4 years--the amount of time spent 
on official time by people making $30, $40 an hour, not working 
at all for the taxpayer, has actually gone up and the cost has 
gone up.
    So, with that, Mr. Chairman and members of the committee, 
once again I want to thank you for giving me the opportunity to 
testify.
    Mr. Ross. Thank you, Mr. Gingrey, and we appreciate you 
being here.
    [The prepared statement of Hon. Phil Gingrey follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Ross. With that, we will take a short recess to prepare 
for the next panel. Thank you.
    [Brief recess.]
    Mr. Ross. Our first witness is Mr. Timothy Curry. He is the 
deputy associate director for Partnership and Labor Relations 
at the Office of Personnel Management.
    We have Mr. Vincent Vernuccio who is the labor policy 
counsel at Competitive Enterprises Institute.
    Next, we have Mr. James Sherk, who is a senior policy 
analyst in labor economics at The Heritage Foundation.
    And then we have Mr. John Gage who is the national 
president of the American Federation of Government Employees.
    I thank you all for being here. Pursuant to the committee 
rules. All witnesses must be sworn in before they testify. If 
you wouldn't mind, please stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Ross. Thank you. Let the record reflect that all 
witnesses have answered in the affirmative.
    Please be seated. In order to allow time for discussion and 
questions, please limit your testimony to 5 minutes, and with 
that, I will recognize Mr. Curry for an opening statement.

  STATEMENTS OF TIMOTHY F. CURRY, DEPUTY ASSOCIATE DIRECTOR, 
   PARTNERSHIP AND LABOR RELATIONS, U.S. OFFICE OF PERSONNEL 
    MANAGEMENT; F. VINCENT VERNUCCIO, LABOR POLICY COUNSEL, 
 COMPETITIVE ENTERPRISE INSTITUTE; JAMES SHERK, SENIOR POLICY 
 ANALYST IN LABOR ECONOMICS, THE HERITAGE FOUNDATION; AND JOHN 
  GAGE, NATIONAL PRESIDENT, AMERICAN FEDERATION OF GOVERNMENT 
                           EMPLOYEES

                 STATEMENT OF TIMOTHY F. CURRY

    Mr. Curry. Chairman Ross, Ranking Member Lynch, and members 
of the subcommittee, thank you for the opportunity to testify 
before you today about the use of official time in the Federal 
civil service.
    As President Barack Obama stated in Executive Order 13522, 
``Federal employees and their union representatives are an 
essential source of front-line ideas and information about the 
realities of delivering Government services to the American 
people.'' The Office of Personnel Management and the 
administration believe that collective bargaining in the 
Federal sector provides an efficient, structured framework for 
engaging employees and giving them a voice in workplace 
matters.
    Official time is a critical component of the carefully 
crafted collective bargaining system that Congress created for 
the Federal Government. Union membership in the Federal sector 
is a choice, but Federal employee unions are required by law to 
represent all employees in the bargaining unit, even those who 
choose not to become dues-paying union members. Official time 
is essential to the unions' ability to meet this statutory 
obligation.
    Labor and management need to be accountable for ensuring 
that official time is used appropriately and not abused. To 
assist them, OPM has voluntarily produced reports on official 
time usage since 2002 with its latest report covering fiscal 
year 2009. The first report on official time prepared by OPM 
was published in 1998 when OPM was directed to prepare a report 
for the House Committee on Appropriations. Subsequently, OPM 
began preparing reports on official time usage on its own 
initiative since fiscal year 2002, and most recently, for the 
period covering fiscal year 2009.
    We continue to refine our methods for official time data 
collection. Prior to the fiscal year 2009 report, OPM collected 
the data from agencies manually. Fiscal year 2009 was the first 
time OPM relied upon agency official time usage data extracted 
from the Enterprise Human Resources Integration System, where 
possible. The report covering fiscal year 2009 was released a 
few weeks ago on May 17, 2011.
    An agency's official time wage cost is determined by 
multiplying the reported official time hours by each agency's 
average bargaining unit employee hourly wage plus fringe 
benefits. During fiscal year 2009, there were 1,159,396 non-
postal Federal civil service bargaining unit employees 
represented by labor unions. Agencies reported that bargaining 
unit employees spent a total of 2,991,378 hours performing 
representational duties on official time. The number of 
official time hours used per bargaining unit employee on 
representational matters during fiscal year 2009, on average 
across the government, was 2.58 hours.
    In comparing fiscal year 2008 and fiscal year 2009 data, 
the cost of official time hours increased by 6.93 percent; 
however, official time costs represented less than two-tenths 
of 1 percent, or 0.0013197 percent to be exact, of the civilian 
personnel budget for Federal civil service bargaining unit 
employees.
    We have just initiated efforts to develop a report for the 
period covering fiscal year 2010 and plan to complete the 
survey later this year. Additionally, the fiscal year 2009 
report is now posted on the OPM Web site, and OPM staff is 
currently working to post all past reports on its Web site in 
the spirit of transparency.
    Thank you for the opportunity to testify, and I am happy to 
answer any questions you may have.
    Mr. Ross. Thank you, Mr. Curry.
    [The prepared statement of Mr. Curry follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Ross. Mr. Vernuccio, you are recognized for 5 minutes.

               STATEMENT OF F. VINCENT VERNUCCIO

    Mr. Vernuccio. Chairman Ross, Ranking Member Lynch, and 
members of the committee. Thank you for holding this hearing 
and providing me the opportunity to discuss the issue of 
official time in the Federal work force. My name is Vincent 
Vernuccio, and I am labor policy counsel at the Competitive 
Enterprise Institute and editor of workplacechoice.org. CEI is 
a nonprofit, nonpartisan public policy organization and focuses 
on regulatory issues from a free market and limited government 
perspective. Workplacechoice.org is a comprehensive, up-to-date 
Web site for news on labor regulations, private and government 
sector unions, pensions and pro-worker legislation.
    Official time is not a good value for the taxpayer and does 
not serve the public interest. Title V of the U.S. Code allows 
Federal Government employees to perform union duties unrelated 
to their jobs, while still being paid their government salary 
which is ultimately funded by the taxpayer. This process is 
called official time. There is no legislative or regulatory 
requirement for the government to report to taxpayers how much 
of this time is utilized by government unions.
    In fiscal year 2009, Federal Government employees lodged 
almost 3 million hours of work for union work while still 
receiving a paycheck from the taxpayers. These hours are 
compensated and are not volunteer benevolence. Taxpayers should 
not be forced to subsidize union activity, and Congress should 
repeal the section of Title V that authorizes official time.
    However, as long as official time is allowed, taxpayers 
should have easy access to detailed information on its usage 
and its costs. Congress should require OPM to report official 
time usage on an annual basis and publish the findings online.
    Official time amounts to a significant and inappropriate 
government subsidy for union activity, paid for by the 
taxpayers. Official time costs taxpayers over $129 million for 
work of no appreciable benefit to them. Those figures represent 
time and money that could have been spent on the government's 
other administrative duties. This does not include the cost of 
administrative official time, union office space in government 
buildings, or official time travel expenses. It does not take 
into account the cost of dealing with the plethora of frivolous 
complaints stemming from the no cost to the union, but of much 
cost to the government's grievances. These expenses could raise 
the actual cost of taxpayer union subsidies significantly.
    Civil service laws provide many of the protections to 
Federal Government employees in areas where the union scope to 
negotiate is limited by statute. This makes many traditional 
representation functions unnecessary and further decreases the 
need for official time. Federal employees do not bargain over 
wages, benefits, and many working conditions that are key 
points of contention for workers in the private sector and in 
many States. The act covers merit system principles, personnel 
practices, labor management relations, and a myriad of other 
workplace issues.
    Statute gives Federal employees many of the protections for 
which official time is supposedly needed. This renders the 
value of official time for activities questionable for both 
Federal workers and for taxpayers.
    Federal Government unions have hundreds of thousands of 
members and take in millions of dollars in dues each year. In 
2010, the American Federation of Government Employees' receipts 
were over $103 million; the National Treasury Employees Union 
exceeded $39 million; and the National Federation of Federal 
Employees, $5\1/2\ million. These totals are only for the above 
unions' national headquarters and do not include receipts from 
locals.
    In addition, there are many other unions that represent 
government employees that have not been mentioned. In some 
instances, these unions are not required to represent 
nonmembers such as in front of the Merit System Protection 
Board or U.S. courts. These unions do have the money to pay for 
the representation of their members. It is unfair to force the 
taxpayer to foot the bill.
    If official time is not revoked, however, Congress should 
enact legislation to mandate its reporting. In its fiscal year 
2009 report, OPM stated twice: There are no legal or regulatory 
requirements to publish any official time data. OPM says it 
voluntarily chose to issue the call and guidance for fiscal 
year 2009. OPM's acknowledgement that it is not required to 
publish this report clearly indicates that the agency could 
discontinue it at its discretion.
    The need for the report is actually twofold. First, 
taxpayers should be able to know how much of their tax dollars 
are being used to fund official time. Second, requiring 
reporting of official time will require Federal employees to 
hold their agencies accountable if it is continued to be 
mandated by law.
    In conclusion, official time is a bad deal for taxpayers. 
Congress should repeal its usage and end the public subsidy of 
union activity. I applaud Congressman Gingrey for his bill, 
H.R. 122; and, short of that, it should also legislate OPM to 
report official time usage on an annual basis. And Congressman 
Ross, I applaud you for your potential bill.
    Thank you, and I would like to take this opportunity to 
thank the subcommittee, and I would welcome any questions.
    Mr. Ross. Thank you, Mr. Vernuccio.
    [The prepared statement of Mr. Vernuccio follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Ross. Mr. Sherk, you are recognized for 5 minutes.

                    STATEMENT OF JAMES SHERK

    Mr. Sherk. Chairman Ross, Ranking Member Lynch and members 
of the subcommittee, thank you for inviting me to testify.
    My name is James Sherk. I am a senior policy analyst in 
labor economics at The Heritage Foundation. However, the views 
I present in this testimony are my own, and it should not be 
construed as representing an official position of The Heritage 
Foundation.
    This afternoon, I want to explain to you why paying 
government employees to do union work does not provide good 
value for the taxpayer. Congress should be aware of three 
significant problems with this official time.
    The first problem with official time is that it subsidizes 
Federal unions attending to private business. Unions exist to 
represent their members. Their core mission is to negotiate 
collective bargaining agreements and represent workers with 
grievances. Union members pay dues so that unions can provide 
these services. With unofficial time, unions would hire full-
time employees to perform these union duties. Instead, the 
taxpayers pay for it. Official time requires taxpayers to cover 
the cost of union representation. Many Federal employees 
actually spend all their time at work on union business. This 
cost taxpayers $129 million in 2009.
    Now, unions, of course, enjoy the subsidy, but it does not 
provide good value for the taxpayer. While unions do use some 
official time on matters of public interest, such as 
discussions with management on how to improve productivity or 
workplace safety, they spend large amounts of official time on 
matters of no public concern. Federal unions bargain such 
issues such as how to assign parking spaces or how to implement 
telecommuting policies. These issues matter only to Federal 
employees. The public should not bear the union's cost of 
negotiating them.
    If Federal employees believe that union representation 
improves their working conditions, then they should pay for 
that representation themselves. Taxpayers should not pay 
government employees to do union work.
    A second problem with official time is that it encourages 
unions to file frivolous grievances. With official time, it is 
taxpayers, not the union, who pay for the cost of union 
representation and grievance proceedings. This subsidizes 
filing frivolous complaints that unions would not spend their 
own money pursuing. Several recent cases demonstrate the 
frivolous charges that unions do, in fact, bring.
    For example, at Randolph Air Force Base, the American 
Federation of Government Employees local asked to renegotiate 
its collective bargaining agreement. However, the local did not 
offer any proposals to management to bargain over. After 4 
months without the union stating what they wanted to discuss, 
the Air Force terminated negotiations. The union then filed a 
grievance against the Air Force. For? Refusing to bargain with 
them.
    In another case, in a Federal prison in West Virginia, the 
collective bargaining agreement expressly prohibited wearing 
jeans at work. The union president nonetheless repeatedly wore 
jeans, despite being reminded of this policy. The union 
president also used the prison e-mail system to e-mail 
employees about purely union matters. The warden told the union 
president to change out of the jeans and to stop using the work 
e-mail system for union matters. In response, the union filed 
unfair labor practice charges.
    Now, these complaints were baseless, and the Federal Labor 
Relations Authority rejected them. But before that happened, 
taxpayers paid for counsel representing the government, a 
Federal labor arbitrator, and a court reporter. Each grievance 
cost the taxpayers tens of thousands of dollars.
    Requiring unions to pay for grievance representatives out 
of union dues would discourage bringing meritless charges. 
Unions would be far more circumspect if grieving cost them 
money, not the taxpayers, and reducing the number of frivolous 
grievances could save the government millions of dollars.
    The third problem with official time is that it subsidizes 
government unions' political agendas. Federal employees may 
lobby Congress while on official time if they are lobbying over 
Federal working conditions. Union officials can and do lobby 
Congress for more generous benefits while being paid by 
taxpayers to perform public service.
    Official time also permits Federal unions to spend more on 
politics. With unofficial time, unions themselves would pay 
union representatives to negotiate collective bargaining 
agreements and represent their workers in grievance 
proceedings. Because the taxpayers cover those costs of the 
core mission, the unions have more money to spend elsewhere, 
such as on politics and lobbying, and Federal unions do spend 
considerable sums on politics.
    In 2010, the American Federation of Government Employees 
national headquarters spent $4.1 million in politics and 
lobbying. The National Treasury Employees Union spent $1.8 
million on these same activities. Federal unions could not 
spend this much if they had to use their own members on the 
core mission of representing their members.
    Unions now, of course, have every right to lobby for their 
preferred policies and campaign for their preferred candidates. 
The taxpayers, however, should not have to subsidize this. Many 
Americans do not want Federal pay to rise and oppose the 
political candidates that Federal unions support.Taxes 
collected from every American should not subsidize Federal 
unions' political agendas.
    Congress can correct these problems by sharply restricting 
the use of official time.
    Thank you. I appreciate the opportunity to explain the 
problems with official time and why it does not provide good 
value for the taxpayer.
    Mr. Ross. Thank you, Mr. Sherk.
    [The prepared statement of Mr. Sherk follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Ross. Mr. Gage, you are recognized for 5 minutes.

                     STATEMENT OF JOHN GAGE

    Mr. Gage. Thank you, Mr. Chairman, Ranking Member Lynch and 
members of the subcommittee. On behalf of the 650,000 Federal 
employees represented by AFGE, thank you for inviting me to 
testify today on official time for volunteer Federal employee 
representatives.
    In January 1962, President Kennedy signed Executive Order 
10988 which gave Federal workers for the first time the right 
to unionize and collective bargain with their agencies. Seven 
years later, President Nixon issued Executive Order 11491 which 
reaffirmed and expanded those rights. Those orders and the 
statute which succeeded them, the Civil Service Reform Act of 
1978, required Federal employee unions to provide 
representation for all employees in their collective bargaining 
units, even those who choose not to pay dues. Under this open 
shop arrangement, Federal unions are also forbidden from 
collecting any fair-share fees from nonmembers for the services 
which the union must provide.
    In exchange for the legal obligation to provide the same 
services to those who pay as well as those who choose not to 
pay, the executive orders and the CSRA allowed Federal unions 
to bargain with agencies over official time. Depending on the 
contract, Federal employees who serve as volunteer employee 
representatives may use reasonable amounts of approved official 
time to engage in representational activity while in duty 
status:legally permitted representational activities, including 
creating fair merit-based promotion procedures; establishing 
flexible work hours and telework opportunities; setting 
procedures that protect employees from on-the-job hazards; and 
forcing protections from unlawful discrimination; participating 
in work improvement processes, and providing workers with a 
voice in determining their working conditions.
    The Civil Service Reform Act provides that the amount of 
official time for these representational responsibilities is 
limited to that which the union and the agency agree is 
reasonable, necessary, and in the public interest. The amount 
of time must be negotiated by the two parties. It is not a 
blank check for the union.
    In addition, the statute clearly states that the activities 
performed by an employee related to the internal business of 
the union must be performed while in a nonduty status. Such 
activities include solicitation of membership, internal union 
meetings, election of officers, and partisan political 
activities. I want to emphasize, Mr. Chairman, that official 
time may not be used for the activities I just mentioned.
    Finally, Federal employees may file appeals of personnel 
actions outside the scope of the unions' negotiated contract. 
Such appeals may be through an agency's internal administrative 
grievance procedures or EEO programs: to MSPB for adverse 
personnel actions such as suspensions, removal, and reduction 
in force; to DOL and/or the MSPB for violations of veteran 
preference rules; to DOL for workers compensation; and to OPM 
for Fair Labor Standard Act violations. These statutes 
themselves provide a reasonable amount of time to employees and 
their representatives, union or not, in order to file such 
appeals.
    Through official time, employee representatives work 
together with Federal managers to make our government better. 
Gains in quality, productivity, and efficiency simply would not 
have been possible without the reasonable and sound use of 
official time. Private industry has known for years that a 
healthy and effective labor-management relationship improves 
customer service and is often the key to survival in a 
competitive market.
    The same is true in the Federal Government. No effort to 
improve governmental performance, whether it is called 
reinvention, restructuring, or reorganizing, will thrive in the 
long haul if labor and management maintain an arms-length 
adversarial relationship.
    In an era of severe budget cutting, it is essential for 
management and labor to develop a stable and productive working 
relationship. If workers and management are really 
communicating, workplace problems that would otherwise escalate 
into costly litigation can be dealt with promptly and more 
informally.
    Employee representatives use official time for joint labor-
management activities that address operational, mission-
enabling issues in the agencies. Such activities are designing 
and delivering joint training of employees on work-related 
subjects, introducing new programs and work methods that are 
initiated by the agency or suggested by the union. As examples, 
such changes may be technical training of health care providers 
in the VA or introduction of data-driven food inspection at the 
Department of Agriculture.
    Employee representatives use official time for routine and 
unusual problem solving of emergent and chronic workplace 
issues, particularly in health and safety programs which 
emphasize effective systems to prevent workplace injuries and 
illnesses.
    Official time is also used by employee representatives 
participating in programs such as LEAN and Six Sigma, labor-
management collaborative efforts, which focus on improving 
quality of products and procedural efficiencies. Currently, DOD 
employee representatives are participating on official time to 
develop new performance management and accelerated hiring 
systems.
    To ensure its continued reasonable and judicious use, all 
Federal agencies track basic information on official time and 
submit it annually to OPM, which then compiles a governmentwide 
report. From fiscal year 2008-2009, total official time hours 
governmentwide have increased 3.37 percent, but the total 
number of hours expended per bargaining unit employee fell from 
2.6 to 2.58.
    Mr. Ross. Mr. Gage, if I could get you to wrap it up.
    Mr. Gage. In conclusion, Mr. Chairman, AFGE strongly 
opposes any proposals to erode the contractual and statutory 
rights of employee representatives to use official time to 
represent both dues-paying and non-dues-paying members of 
collective bargaining units. Official time is a longstanding, 
necessary tool that gives agencies and their employees the 
means to expeditiously and effectively utilize employee input 
into mission-related challenges of the agency, as well as to 
bring closure to conflicts that arise in all workplaces. It has 
enjoyed bipartisan support for almost 50 years.
    Thank you, Mr. Chairman.
    Mr. Ross. Thank you, Mr. Gage.
    [The prepared statement of Mr. Gage follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Ross. And I will recognize myself now for 5 minutes for 
questions.
    Mr. Curry, the question I have to ask you is since 2002 
there has been an annual report up through 2009 from OPM as to 
official time, but for some reason inexplicable to me is there 
has been a 20-month delay. Can you explain why there has been a 
20-month delay in rendering the report?
    Mr. Curry. I would be happy to answer the question, Mr. 
Chairman.
    I arrived at OPM in August 2010, and as I began assessing 
the programs I had responsibility for, I determined that the 
official time report for 2009 had not been accomplished yet. 
There is a variety of reasons why that would be. There was a 
reorganization at OPM, there was a turnover in the staff in my 
office. Ultimately, that had some impact on starting the 
report.
    We also decided to take a different approach. I directed my 
staff in mid- to late September to begin compiling the data for 
the report, and as I noted in my opening remarks, instead of 
manually collecting the data we decided to take a different 
approach and extract the data from a data system and then ask 
agencies to validate the data.
    Mr. Ross. So the recent report you would say is accurate--
is at least as accurate as the ones previously submitted?
    Mr. Curry. Yes, sir.
    Mr. Ross. And with regard to a report on 2010, is that in 
the works?
    Mr. Curry. We are in the process of starting to gather that 
data and expect to have that finished by September.
    Mr. Ross. Thank you.
    Mr. Curry. Yes, sir.
    Mr. Ross. Now, I also understand that there are some 
Federal employees that 100 percent of the time is on official 
time; is that correct?
    Mr. Curry. Yes, that is correct.
    Mr. Ross. And how many employees would you say that is?
    Mr. Curry. We do not track that data. Those reports don't 
reflect that, but the hours for those employees on 100 percent 
official time would be reflected in the total ADC hours that 
are reported to us.
    Mr. Ross. And if you are on 100 percent official time, do 
you then get--are you eligible for and receive pay increases, 
annual pay increases?
    Mr. Curry. I could--you are not eligible for a performance 
rating because you are not performing agency assigned work. So 
therefore you are not eligible to receive a performance award 
or a quality step increase based on performance. You are 
eligible for the annual pay adjustments as well as within-grade 
step increases.
    Mr. Ross. So--OK. If Federal employees are on official 
time, can they lobby Congress?
    Mr. Curry. There is no statutory right to official time to 
lobby Congress. However, as part of the contractual right to 
negotiate on official time, it is negotiable for a union to 
propose to receive official time to lobby Congress on 
workplace-related matters.
    Mr. Ross. So would it be fair to say, then, that those 
times that are reported as official time lobbying Congress are 
done in pursuance to a contract based on collective bargaining?
    Mr. Curry. Yes, sir.
    Mr. Ross. As opposed to being statutorily authorized?
    Mr. Ross. Correct.
    Mr. Ross. Let me ask you about the location. Do any of the 
employees do official time off location; in other words, off 
their work status?
    Mr. Curry. I don't have that information.
    Mr. Ross. Would you have any idea?
    Mr. Curry. I would not know that answer, sir.
    Mr. Ross. Given that most employees cannot collectively 
bargain over pay and benefits, can you discuss in detail the 
sorts of activities labor union representatives negotiate when 
on official time?
    Mr. Curry. Certainly. I can give you different examples. 
One big example would be negotiating over merit promotion 
procedures where unions could negotiate procedures for fair and 
honest competition for bargaining employees for competing for 
Federal jobs. You could see contract provisions dealing with 
safety requirements for workplace matters as far as to ensure 
that procedures are set in place to ensure that it's the safest 
environment for employees. You could see procedures for 
negotiating how overtime work assignments are made. So there 
are different workplace matters that they do negotiate on, how 
you accomplish things.
    Mr. Ross. I am going to be filing a bill that would require 
OPM to produce this report annually at the end of March. Do you 
think OPM would object to that?
    Mr. Curry. We would not have any position on the bill at 
this time, sir.
    Mr. Ross. Mr. Vernuccio, with regard to private sector 
unions, is there any tracking or data available as to how much 
union time is spent by private sector employees on private 
sector payrolls?
    Mr. Vernuccio. The main report for private sector unions 
and some Federal unions is the LM2 which is available on the 
Department of Labor's union reports DOT gov. I am not sure if 
there is any line on there that tracks in the collective 
bargaining agreement how much is actually spent on the private 
sector version of official time. There are some private sector 
collective bargaining agreements that do have--do have the 
equivalent of paid shop stewards.
    Mr. Ross. Mr. Sherk, are you familiar with how that relates 
between private sector unions and public sector unions and 
official time?
    Mr. Sherk. The GAO took a look at this back in 1996 through 
1998 when there were a lot of investigations of this, and their 
finding was about--they examined a number of collective 
bargaining agreements. About half of private sector companies 
permit some form of official time, and half do not. So it's 
about an even split in the private sector between allowing it 
and not.
    Mr. Ross. I see my time is up. So I will recognize the 
ranking member, Mr. Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman, and I want to thank our 
witnesses.
    Let me try to give a concrete example. I was elected on 
September 11, 2001, in the Democratic party in Massachusetts. 
When I came to Congress a few weeks later, there was anthrax in 
some of the Federal buildings, including the Brentwood postal 
facility not far from here, and tragically, two of my postal 
clerks, Thomas Morris, Jr., and Joseph Curseen, Jr., died of 
anthrax inhalation. Now, because there was anthrax in a number 
of facilities in New York as well, there was a lot of 
involvement by the union representatives. There was anthrax. It 
was difficult to detect. It had killed two workers and injured 
some others. So we used a lot of official time. They used 
official time to protect the other workers.
    There was actually a moment during that period when, 
because of the attacks of 9/11 and the anthrax attacks which 
were right on the heels of those attacks, the union 
representatives were very concerned about sending their workers 
back into these post offices because the anthrax had been 
detected. And so workers were going to work, they were 
contaminated with the anthrax, and then they were going home to 
their families. So a lot of the union stewards and union 
presidents were very concerned about sending their workers back 
into those facilities.
    So the postal unions were faced with a dilemma. They could 
not go to work, and the mail would not go through to every home 
and business in America 6 days a week. It would have, I think, 
caused great damage at that moment after the 9/11 attacks to 
have commerce stop. So a lot of those union representatives 
came up to the Hill to talk to Congress, and a lot of them 
spent official time on that issue, especially because of the 
deaths of those two workers.
    Now, at the end of the day, I think they made a very 
courageous decision. They said, we are going to go to work, and 
I have two sisters that work at the post office, and I know--
and they both had young kids at the time. They were very 
concerned about contaminating themselves and their kids. They 
made a decision that they would go to work, and I think, you 
know, we have never really thanked the postal workers, you 
know, the clerks, the mail handlers, the letter carriers, the 
supervisors, the postmasters, for the work that they did during 
that very critical time and the courage that they showed in a 
very difficult time. They did the patriotic thing; they went to 
work.
    But they also used those rights that you are trying to 
limit here today or speaking against, some of you, and you 
know, that not only protected American workers in the 
workplace, but it also protected the public and it protected, 
you know, families and kids.
    And, you know, sometimes I think some legislation here is 
actually a problem in--well, a solution in search of a problem, 
I guess, what I would call this H.R. 122. I have talked to a 
lot of the Federal manager groups. This issue never comes up. 
We are in a mess here in Washington, the debt limit, the 
budget. We have problems. We are in three wars. I talk to these 
managers all the time, Federal managers, because I am a member 
of this committee, ranking Democrat. This issue never comes up, 
never. And here we are, we are having a full-blown hearing, and 
this now apparently is the issue d'jour. It is another way to 
get back at the unions, get back at workers, to try, you know, 
try to exercise their rights.
    These workers don't even have the right to strike. They 
have very few rights, these workers. They are allowed to 
complain, but, by God, they better keep on working. They don't 
even have the right to strike. We have stripped that away from 
them because we have said your public service is so important, 
and this is the way we treat them.
    I think it is disgraceful, I really do. I think we ought to 
treat our workers better, especially Federal workers. We want 
good people who want to come to work in the service of their 
government. We have to stop trashing them. We have to start 
thinking about how we might make these jobs have a little bit 
more dignity, treat them with a little bit more dignity, what 
they have earned; and you know, like those postal workers who 
went to work in spite of the anthrax, and you know, the two 
workers who died in the performance of their duty, and I don't 
even want to mention the 335 firefighters that went up the 
stairs on 9/11 or the 72 police officers or the EMS workers who 
went up the stairs on 9/11 at the north and south towers of the 
World Trade Center when everybody else was going out. You 
forget the fact that every single one of those firefighters, 
those EMS workers, and those police officers, every single one 
of them had a union card in their pocket. Every single one of 
them, and this is how we repay them.
    I have extended my time, and I appreciate the courtesy, Mr. 
Chairman. I yield back.
    Mr. Ross. Thank you, Mr. Lynch. I recognize the gentleman 
from South Carolina, Mr. Gowdy, for 5 minutes.
    Mr. Gowdy. Thank you, Mr. Chairman, and I thank you for 
your leadership on this subcommittee on this issue and so many 
others.
    Mr. Curry, are there certain categories of Federal 
employees whoare not able to unionize?
    Mr. Curry. Yes, sir, Mr. Congressman. The labor statute 
does exclude certain categories of employees from unionizing. 
You might have employees that might be involved in 
intelligence, for example. Managers can't organize. Certain 
other categories would include like labor relations 
professionals such as myself.
    Mr. Gowdy. How about Bureau agents?
    Mr. Curry. FBI? They are excluded by law from being covered 
under the labor relations statute.
    Mr. Gowdy. Well, I can't think of a category of employees 
who would be more interested in workplace safety than Bureau 
agents. So who advocates on their behalf?
    Mr. Curry. I don't have an answer for that, Congressman.
    Mr. Gowdy. Well, they are not unionized so nobody's taking 
official time, correct?
    Mr. Curry. That would be my estimation, yes.
    Mr. Gowdy. Do you agree with me that no category of Federal 
employees would have more cause for concern for workplace 
safety than FBI agents, and yet no one is being paid to 
advocate on their behalf. Agreed?
    Mr. Curry. Sir, I would certainly say that all employees 
would want someone to advocate for them. I don't know how they 
do it at the FBI.
    Mr. Gowdy. What about the Drug Enforcement Agency; would 
you agree with me that they are not able to unionize?
    Mr. Curry. I believe that is correct, but I don't know for 
certain, sir.
    Mr. Gowdy. What about ATF agents?
    Mr. Curry. Again, I don't know for certain, sir.
    Mr. Gowdy. Secret Service agents?
    Mr. Curry. I believe they are not organized.
    Mr. Gowdy. ICE?
    Mr. Curry. Actually they are organized.
    Mr. Gowdy. Immigrations and Customs are unionized?
    Mr. Curry. Yes, sir.
    Mr. Gowdy. So what about Federal prosecutors?
    Mr. Curry. I don't have an answer for that. I don't believe 
they are, but I don't have that information, sir.
    Mr. Gowdy. So you can advocate, you can lobby Congress, you 
can advocate for workplace safety, you can do all of that 
outside a union and on your own time?
    Mr. Curry. Well, I mean ultimately, sir, I would think that 
when employees organize, it is basically a labor union 
providing a collective voice for the work force. I think that 
is ultimately the idea, with labor organizations and collective 
bargaining being found to be in the public interest.
    Mr. Gowdy. I am going to try my question again. Bureau 
agents, ATF agents, DEA agents, Federal prosecutors, all are 
concerned with workplace safety, including their own lives. 
They can't unionize, but yet they can still advocate on their 
behalf; correct?
    Mr. Curry. I assume so, sir, but other law enforcement 
organizations do have labor unions as far as police officers. 
They are organized in the Federal Government.
    Mr. Gowdy. Well, I thought we were primarily talking about 
Federal employees today.
    Mr. Curry. Well, we do have Federal police officers.
    Mr. Gowdy. Can you tell me your--do you agree, rather, the 
phrase ``reasonable and necessary in the public interest,'' 
that seems somewhat vague and overly broad; do you agree or 
disagree?
    Mr. Curry. It is open to interpretation, sir.
    Mr. Gowdy. How do you interpret it?
    Mr. Curry. Well, ultimately, since that is a contractual 
form of official time, that's where the parties--where there is 
a collective bargaining relationship, labor and management, 
they have to have a meeting of the minds on what they agree to 
be reasonable and necessary and in the public interest as it 
relates to their organization, their mission, and the 
circumstances of what's happening in that organization.
    Mr. Gowdy. My colleague from Florida asked a question and I 
want to followup, whether or not there are Federal employees 
who are on 100 percent official time.
    Mr. Curry. Yes, there are, sir.
    Mr. Gowdy. Can you give me a rough estimate of how many 
Federal employees are on 100 percent official time?
    Mr. Curry. We do not track how many employees are on 
official time, but the hours for that official time would be 
included, the total hours reported by each agency.
    Mr. Gowdy. Where could curious folks go to find the answer 
to that question?
    Mr. Curry. We would have to ask the agencies to identify 
that information to us.
    Mr. Gowdy. How troublesome is that?
    Mr. Curry. We have actually posed that question. It is a--
it is a lengthy process. They have to go out and gather that 
information for us.
    Mr. Gowdy. Thank you, Mr. Chairman. I would yield back the 
remainder of my time.
    Mr. Ross. Thank you. They called us for votes. We will try 
to get some of these in right now, and I will recognize the 
ranking member of the full committee from Maryland, Mr. 
Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Gage, as members of this committee know firsthand from 
our hearing in April with Wisconsin Governor Scott Walker, 
there is an effort in States controlled by Republican Governors 
to diminish or totally eliminate public sector unions. As we 
also know from Governor Scott Walker's testimony, he admitted 
that there was no budget savings basis for his effort to 
rescind collective bargaining for public sector workers. While 
he used the State's budget problems as a pretense to roll back 
collective bargaining, there was not a valid reason for doing 
so and the State would reap no budget savings by doing so. I 
wonder if we don't see the same thing here today at this 
hearing.
    Mr. Gage, in your opinion does the Gingrey bill share in 
common any resemblance to the legislative efforts in the 
Republican-controlled States to curtail public sector 
collective bargaining?
    Mr. Gage. Well, Congressman, I am trying to be positive 
with this hearing, thinking it's an honest look at something 
that clearly is within Congress' purview; but when you take 
away official time, the way collective bargaining is set up in 
the Federal sector, you take away collective bargaining. You 
can't have a contract without enforcing it, and the official 
time from our volunteer reps, that is how contracts are 
enforced. You take that away, and it's--and the contract 
becomes meaningless.
    But you know, this is not the first time we have discussed 
this, and these agencies just didn't fall off a turnip truck. 
They take strict accounting. All official time is approved. 
It's on an issue-by-issue basis, and those who are on official 
time 100 percent, they are running big unions.
    For instance, the Bureau of Prisons, our Council there, the 
Council president is on 100 percent time, but he is working, 
usually in management's lap, almost every day. Same with our 
president of our VA Council which has 90,000 members in VA's 
hospitals all over the country. She is on 100 percent but works 
closely, day-by-day with management, and it's just a more 
efficient way of doing things.
    Mr. Cummings. Let me give Mr. Vernuccio a say here because 
we don't have much time. Mr. Vernuccio.
    Mr. Vernuccio. Vernuccio, yes.
    Mr. Cummings. As you know, Governor Scott Walker of 
Wisconsin kind of boasted his anti-union political intentions 
to a person who was calling for a status report while posing as 
one of the Koch brothers. Governor Walker received a great deal 
of support from the Koch brothers in his political campaign, 
and I'm wondering if the Koch brothers have backed you or your 
organization as well. And have you or the Committee Enterprise 
Institute received money from the Koch brothers or any 
organization supported financially by them?
    Mr. Vernuccio. Congressman, for my project at the 
Institute, I can say with 100 percent certainty, no, we have 
not received any Koch money. Our money comes from small 
donations through direct mail, primarily from across the 
country. For the larger Institute, I am almost positive we have 
not received any money from the Koch Foundation, but I cannot 
be 100 percent sure.
    Mr. Cummings. And Mr. Sherk, the same question for you. 
Have you or the Koch brothers funded your organization as well? 
Do you know?
    Mr. Sherk. I believe they gave a relatively small amount. 
It is less than 1 percent of our budget.
    Mr. Cummings. What is your budget?
    Mr. Sherk. I'd have to look at our annual report. I don't 
know that.
    Mr. Cummings. Well, let me inform y'all what I know. It 
might interest you that--and members of the committee--to know 
that the Koch brothers have been substantial, substantial 
funders of both your organizations. According to publicly 
available information, Mr. Sherk, your organization received 
over $1 million from the Koch brothers, and yours, Mr. 
Vernuccio, received over $350,000.
    And so will each of you provide this committee with details 
of the funding, support your organization has received from the 
Koch brothers in each of the past 5 years so that we can be 
clear on this? Would you do that for us.
    Mr. Vernuccio. Yes.
    Mr. Cummings. Thank you very much. Would you do that for 
us, Mr. Sherk?
    Mr. Sherk. I believe it's publicly available----
    Mr. Cummings. No, I want it from you, since you just 
testified that it's a small portion; less than 1 percent, I 
think you said. I don't want to put words in your mouth.
    Mr. Vernuccio, you support the Gingrey bill, and I wonder 
if you or the Competitive Enterprise Institute has prepared any 
testimony or analysis for any effort in any State to curtail 
collective bargaining of public sector workers there, any other 
testimony, yes?
    Mr. Vernuccio. We are preparing studies on pro-worker 
legislation and pro-worker movements across the States.
    Mr. Cummings. So the answer is yes or no?
    Mr. Vernuccio. The answer is on our Web site. Yes, we do 
have pro-worker bills.
    Mr. Cummings. I see my time has expired. Thank you, Mr. 
Chairman.
    Mr. Ross. Thank you. I recognize the delegate from the 
District of Columbia, Ms. Norton, for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Chairman, there is a difference between learning how 
Congress spends and not wanting funds to be spent at all.
    Just let me indicate my sadness at having witnesses come 
before us today, testifying in a way that can leave no doubt 
that they do not believe in the right to collectively bargain 
at all. I commend to you the history of authoritarian 
government. You know, there are four or five things that they 
oppose: freedom of speech, freedom of religion, and the right 
to organize.
    The right to organize and join a union means the right to 
operate that union. So let's look at the cost, since that is 
the pretext being used here.
    There is a cost here only if you think that Americans that 
work for the Federal Government don't have the right to 
organize. Let's look at it. They can't bargain wages, certainly 
no cost there.
    Gentlemen, let me suggest to you that unions subsidize, 
subsidize the Federal Government through the duties they carry 
out as a consequence of achieving the right to organize. For 
example, are you aware--I assume you are aware that unions have 
to organize and carry the grievances of people who pay no union 
dues and are not members of the union. Are you aware of that?
    Mr. Vernuccio. Congressman, in many cases, unions do not 
have to represent non-members, especially in front of the Merit 
Systems Protection Board, and in front of----
    Ms. Norton. Are you aware that most Federal Government 
unions, in fact, carry the--must carry--must bargain for all 
employees?
    Mr. Vernuccio. I believe that's a portion of their 
exclusive bargaining----
    Ms. Norton. Mr. Gage, would you answer the question, 
please?
    Mr. Gage. We have to represent all employees in grievances. 
If there is a statutory avenue for an employee and he chooses 
to go that way, we don't have to represent them; but in all 
grievances under a contract, we have to represent the member 
and the nonmember.
    Ms. Norton. That's Federal law.
    Let me ask both of you, who appear to believe that $130 
million, that to you--that is not your conscience, is that the 
amount of money that is spent according to the official report, 
that you find too much money, too much taxpayers' money to pay 
for what the taxpayers get in return?
    Mr. Sherk. One hundred thirty million dollars is a small 
part of the overall budget, but it's still an enormous amount 
of money, and we'd like to see it spent well.
    Ms. Norton. How would you set up--the Federal Government 
has set up this system, not out of its munificence to its 
workers, but because it is the most efficient way to deal with 
problems that arise in the workplace. You would not have 
official time used. How would you deal with complaints that 
arise every day in a large work force, inevitable, if there was 
no official time and no designated person chosen to carry out 
the responsibilities of settling those issues?
    Mr. Sherk. What I set forward in the written statements was 
that what I would do is end the official time, but then also 
end the exclusive representation requirements, so that they 
would have no obligation to represent non-members. If an 
individual Federal employee believes that the union 
representation is of value to them, they should pay the union 
dues.
    Ms. Norton. So you think the statute is at fault by saying 
that Mr. Gage has to represent all members, regardless of 
whether or not they pay dues? Are you saying people who don't 
pay dues should not be represented in their grievances, and 
should be what?
    Mr. Sherk. I don't think we should have exclusive 
representation.
    Ms. Norton. How should those employees deal with their 
grievances?
    Mr. Sherk. It should be their choice. If you want the union 
representation and you want the benefits of the contract, you 
sign up and pay union dues. If you don't think it's of much 
value----
    Ms. Norton. There has been a union election, Mr. Sherk. The 
majority have joined a union. Do you believe in majority rule? 
The majority wants to be represented. We are not going to leave 
out people who decided that--who voted against the union. You 
think that is unfair?
    Mr. Sherk. Well, what I am proposing is that if you like 
Coke or you like Pepsi at a party, you can pick whichever one 
you like. You're not required to go with what the majority 
choose. That's what I'm suggesting.
    Ms. Norton. And you do not concede that there are any 
efficiencies for the Federal Government in having labor pieces 
through grievances dealt with on a day-to-day basis through 
union representation?
    Mr. Ross. The gentlewoman's time has expired.
    Ms. Norton. Could I ask him to just get an answer to it?
    Mr. Ross. Please answer it and then we'll have to adjourn.
    Mr. Sherk. There may be some efficiencies, but there's also 
some costs there and a lot of frivolous grievances are filed.
    Ms. Norton. To the tune of $130 million.
    Mr. Ross. Thank you. Upon agreement with the ranking member 
of the subcommittee, we are going to adjourn at this point and 
I appreciate the witnesses being here.
    With that, this subcommittee stands adjourned.
    [Whereupon, at 2:50 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
